Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





STATE PROHIBITIONS ON HOSPITAL

  EMPLOYMENT OF PHYSICIANS





              , SERVIQ
           t-\


                         Richard P. Kusserow
                         INSPECTOR GENERA
      1'

             d,(J           NOVEMBER 1991
                       OFFICE OF INSPECfOR GENERA

The mission of the Offce    of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three DIG operating components: the Offce of Audit Servces , the
Offce of Investigations , and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems, and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrg out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian , Ph. , Regional Inspector
General , Offce of Evaluation and Inspections , and Martha B. Kvaal , Deputy Regional
Inspector General , Office of Evaluation and Inspections , Region I. Participating in this project
were the following people:

       Boton Region                                                   Headquarrs
       Russell W. Hereford , Ph.     Project Leader                   Alan S. Levine
       Lori B. Rutter                                                 W. Mark Krushat
                                                                      Barbara R. Tedesco
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





STATE PROHIBITIONS ON HOSPITAL

  EMPLOYMENT OF PHYSICIANS





              , SERVICtn
           t-\~



                           Richard P. Kusserow
                           INSPECTOR GENERA
      1'

           ~~d,(J              OEI-Ol-91-00770
                EXECUTIVE SUMMARY

PUROSE
The purpose of this study is to assess State laws prohibiting hospital employment of
physicians. It responds to a congressional request that the Office of Inspector General
study the effect of these laws on the availabilty of trauma and emergency care
servces. Our study focuses on (1) the extent to which hospitals across the country are
prohibited from hiring physicians; (2) the general impact of these prohibitions
hospital operations; and (3) their more specific impact on hospitals ' abilty to provide
emergency servces and comply with the Federal patient transfer law.

BACKGROUN
State prohibitions on hospital employment of physicians derive from laws requiring
that individuals must be licensed to practice medicine. In some States , judicial
decisions dating to the 1930' s have interpreted these laws to preclude hospitals from
employing physicians for the purpose of practicing medicine. The rationale for the
prohibitions on employment of physicians is based on the potential for conflct
between a physician s loyalty to the patient and the financial interests of the
corporation. Opponents of the prohibitions contend that the doctrine is a vestige of
an earlier era and that in the current health care system hospitals need the authority
to control all aspects of health care delivery and personnel within their walls , including
medical care.

The Omnibus Budget Reconciliation Act of 1990 (P. L. 101- 508) requested that the
Office of Inspector General study whether these prohibitions have a particular impact
on hospital emergency departments.

Our study uses data from (1) a mail survey of a national random sample of hospital
administrators; (2) intervews with a purposive sample of over 50 hospital
administrators , medical association and hospital association officials , and other
individuals knowledgeable on issues related to the corporate practice of medicine; and
(3) a review of legal and policy literature.

FIINGS
Few States prohibit hospitals from emplog physiians.

       Only five States -- California , Colorado , Iowa , Ohio , and Texas -- clearly
       prohibit hospitals from employing physicians. Even in these States , certain
       tyes of hospitals and providers are exempt from these prohibitions.
       In some other States , there is uncertainty over whether State laws defining the
       practice of medicine preclude hospitals from employing physicians.


State prohiitns on hospitl     emplot of physins have some advere impact on
hopitl opeatins.

       Thirty-eight percent of hospital administrators responding to the survey from
       the five States that prohibit hospital employment of physicians indicate     that
       these prohibitions impose legal , recruitment , or administrative costs.

       Forty-one percent respond that the prohibitions make it more difficult to staff
       medical servces.

       Twenty- four percent say that the prohibitions make it more difficult to staff
       basic emergency servces.

       Thirty percent say that the prohibitions make it more difficult to provide
       specialty emergency servces.


However thee prohibitns     do not appear to present a major over aU proble   for
hospitls.

       Thirty-three percent of hospital administrators responding to the survey from
       the five States that prohibit hospital employment of physicians report   that they
       are not even aware that these prohibitions apply in their State.

       Hospital administrators in these five States cite a number of factors other than
       prohibitions on hospital employment of physicians as more important
       limitations on their abilty to assure specialty coverage in their emergency
       departments. These factors include a shortage of specialty physicians ,   low
       reimbursement rates , fear of increased malpractice liabilty, and disruption of
       their private practices.



       When asked about the impact of the Federal patient transfer law on their
       hospital , none of the administrators responding from the five States identified
       prohibitions on physician employment as an obstacle to compliance.
                          ................................................
                                                        . . . . . . . . . . . . . . . . ..     . .. .. .. .. .. .. .. .. .. .. ...
             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
               ..................................                                                                                .




                     TABLE OF CONTENTS

                                                                                                                          PAGE
EXECUTIVE SUMMAY

INTRODUcrION
   Purpose

   Methodology

   Background

FINDINGS                                                                                ...................4
   Summary and Conclusion. . . . . . .


APPENDIX A: Methodology                      ..................................... A­


APPENDIX B: Endnotes ......................................... B­





                                                            iii
                             INTRODUCTION


PUROSE
The purpose of this study is to assess State laws prohibiting hospital employment of
physicians. It responds to a provisionin the Omnibus Budget Reconciliation Act of
1990 requesting that the Office of Inspector General study the effect of these laws
on the availability of trauma and emergency care servces.

Our study focuses on (1) the extent to which hospitals across the country are
prohibited from hiring physicians; (2) the general impact of these prohibitions on
hospitals; and (3) their more specific effect on hospitals ' abilty to provide emergency
care servces and comply with the Federal patient transfer law.


METHODOLOY
Our study utilized three primary data- gathering approaches (see appendix A):
       (1) We mailed a survey regarding issues related to hospital emergency
department coverage to a national random sample of 598 hospital administrators;
nationwide , 447 (74. 7 percent) responded. This analysis utilzes a subsample of 115 of
those hospitals from States that prohibit hospital eD;ployment of physicians.
       (2) We conducted intervews with a purposive sample of more than 50 hospital
administrators , medical society and hospital association officials , and other individuals
knowledgeable on issues related to the corporate practice of medicine.
       (3) We reviewed and analyzed statutes , case law, and literature on the
corporate practice of medicine.



BACKGROUN
Prohibitns on   Hospital Emplont      of   Physins:   Th   Corprate Practie of   Med
State prohibitions on hospital employment of physicians derive from laws requiring
that individuals must be licensed to practice medicine. In some States , these laws have
been interpreted to preclude hospitals from employing physicians for the purpose
practicing medicine. While physicians may be employed for nonpatient care duties
(e.   teaching or administration), hospitals may not receive professional fees when
physicians treat patients.

Prohibitions on hospital employment of physicians are a subset of a larger issue
referred to as the corporate practice of medicine doctrine. This doctrine arouses
passionate debate among those versed in its intricacies. Articles discussing the
corporate practice of medicine have included such titles as "An Outmoded Theory in
Need of Modification "Z "An Anachronism in the Modern Health Care Industry,
 The Growth of the Medical- Industrial Complex May Be Hazardous to Your
Health "4 and " Pressure to Serve Two Masters. "s On a more fundamental level , the
debate over the corporate practice of medicine doctrine is an argument over who will
control the delivery of medical care. This contention focuses on whether physicians
should make decisions free of external constraints or whether outside parties (a
hospital administrator, for example) should be able to exert control over physician
behavior.

Ratinale for Corprate Practie Prohibitns
The rationale for prohibiting employment of physicians is described in a number
legal decisions that date to the 1930' s. The California Supreme Court in 1932
determined that it is impossible to separate the regulated practice of care from the
business practice because " either one may extend into the domain of the other. "6 A
1938 decision in the same State held that   letting a corporation hire and control
physicians would lead to " divided loyalty and impaired confidence " between the
interests of the corporation and the primacy of the patient s needs.

An Ilinois case of the same era reiterated that a corporation s " employees must owe
their first allegiance to their corporate employer and cannot give the patient anything
better than a secondary and divided loyalty.

That court also concluded that " to practice a profession requires something more than
the financial abilty to hire competent persons to do the actual work. It can be done
only by a duly qualified human being, and to qualify something more than mere
knowledge or skill is essential. The qualifications include personal characteristics , such
as honesty, guided by an upright conscience and a sense of loyalty to clients or
patients , even to the extent of sacrificing pecuniary profit , if necessary.

In 1975 a Federal court upheld a Texas ruling that denied a license to a clinic
organized to provide health care to low- income patients , because the board of
directors did not comprise physicians. The court's opinion summarizes a range of
issues related to corporate practice prohibitions: " Who and what criteria govern the
selection of medical and paramedical staff members? To whom does the doctor owe
his first duty -- the patient or the corporation? Who is to preserve the confidential
nature of the doctor- patient relationship? Who is to dictate the medical and
administrative procedures to be followed? Where do budget considerations end and
patient care begin?"lo



Oppon to Corprate Practie Prohibitns
Opponents of prohibitions on hospitals ' ability to employ physicians maintain that the
legal doctrine is a vestige of an earlier time , when health care was " a cottage industry,
made up of independent professionals operating as solo practitioners. "u Today
health care industry differs substantially from the one in which the corporate practice
prohibition originated. " Financial pressure on both the individual and system levels is
causing the provision of medical care to be approached quite differently. "12 The
emergence of health maintenance organizations , provider networks , and other
managed care approaches means that " the fee and the number and tye of units of
servce authorized are increasingly being monitored and controlled , very often by
parties outside of the traditional health care provider community. "13

A former general counsel to the American Hospital Association reported that the
corporate practice prohibition adversely affects hospitals in particular. "The ancilary
servces that contribute to medical treatment of the patient are usually performed by
hospital employees. If a hospital may not legally practice medicine , may it practice
nursing or pharmacy? How is the hospital to direct and correlate and make them
available to the physician when he needs them in the treatment of his patient? It is
essential if hospitals are to continue as centers of organized medical care , that their
governing boards have authority to exercise the kinds of control over personnel -­
including certain professional personnel -- without which the boards cannot discharge
their responsibilty to make the various servces available when they are needed. "14

Potentil Impact on        Emeen Seres
Prohibitions on hospital employment of physicians might affect emergency care
adversely in one of two ways. First , these laws could limit the availabilty of basic
emergency physicians. Second , prohibitions on employing physicians could adversely
affect hospitals ' ability to have available specialty servces (such as neurosurgery,
plastic surgery, and orthopaedics) required by traumatized patients or obstetrical
servces for women who enter the emergency department in active labor.

Under the Federal patient transfer law lS hospitals must meet a number of     specific
requirements regarding examination and treatment of persons with emergency medical
conditions and women in labor. Medicare-participating hospitals must provide for an
appropriate medical screening examination for any individual who comes to a hospital
emergency department. If the person has an emergency medical condition, the
hospital must either provide further examination and treatment necessary to stabilze
the medical condition 
    under narrow circumstances , provide for the appropriate
transfer of the individual to another medical facility. This statute defines the term
 emergency medical condition " and specifies conditions under which a transfer to
another medical facilty is appropriate. Subsequent amendments to the statute also
include as a condition of participation in Medicare that hospitals maintain a list of
physicians who are on call for duty to provide treatment necessary to stabilze an
individual with an emergency medical condition.
                   --                                               --




                                    FINDINGS

FEW STATE PROHIIT HOSPITAL FROM EMWYIG PHYSICIAS.

On fie     State        Caliornia Colorad, Iowa, Ohio, and    Tex        clearl prohibit
hopitls frm emplog           physins. Even in thee States, cerain type of hospitls and
provi are expt frm thee prohibitns.
With the recent passage of legislation in North Dakota16 and Montana 17 expressly
permitting hospitals to employ physicians , only the five States cited above clearly
prohibit the practice. Hospitals in these five States comprise 23 percent of all U.
hospitals. IS



Even in these five States , the prohibition on hospital employment of physicians does
not apply in all situations , according to those we intervewed and our legal review.
The exceptions to the prohibition are based on factors such as hospital auspices
physician specialty, or organizational arrangement. In California , for example , the
prohibition does not apply to clinics operated by university medical schools or to
public hospitals. In Iowa , Colorado , and Ohio , teaching hospitals may hire faculty as
well as residents and interns for purposes of education. In Iowa , pathologists and
radiologists are exempt from the provisions.    In 1991 ,   Texas enacted legislation
permitting public hospitals to employ physicians directly, providing statutory authority
for a practice that was already widespread among many rural hospital districts. Health
maintenance organizations in each of these five States also are able to hire physicians
either directly or through contracts with physician groups.

In some othe States, thee is unertainty over whethe State laws deing the practie of
me      preclu hospitls from emplog physins.
In some States the lack of clarity over whether prohibitions on the corporate practice
of medicine apply to hospital employment of physicians creates some confusion. Legal
literature on the subject reveals that the application to hospitals of general provisions
forbidding nonlicensed persons from practicing medicine simply has been ignored or
not enforced in recent years.

Two recent State court decisions raise the possibilty that hospital employment of
physicians might be prohibited , even though the decisions do not address that specific
issue. A 1991 Kansas Supreme Court decision zo and a 1988 judgment from the
Washington State Supreme Court       strengthened general restrictions on the
corporate practice of medicine by ruling that non physicians may not be partners
medical practices. These decisions , however , fail to distinguish between general
corporations and licensed hospitals. According to individuals we intervewed in these
two States , health care providers are concerned that a literal interpretation of the
decisions could pose threats to the arrangements that many hospitals use to provide
medical staff.
STATE PROHImONS ON HOSPITAL EMPWYMNT OF PHYSICIAS
HAVE SOME ADVERSE IMACf ON HOSPITAL OPERATIONS.

Ih-eght peent of hospitl adinistrators respondg to the suey frm the fie States
that prohiit hopitl    emplot                  inate
lea recr
                            of physins         that thee prohibitns impoe
                  or adintratie costs.

Legal costs can be incurred in two broad areas. First , hospitals must assure that
physician- hospital contracts do not violate the State prohibition on corporate practice
of medicine. According to administrators and attorneys we intervewed , these
contracts are fairly standard and do not pose a major problem.

Second , and more importantly, legal issues may arise when a hospital wishes to change
its organizational structure , either to take advantage of new business opportunities or
to address financial pressures. State prohibitions on the corporate practice of
medicine make the legal requirements governing organizational arrangements more
complex and cumbersome. For example , prohibitions on hospital employment of
physicians mean that a hospital may not own a medical practice. In California
hospitals may form medical foundations , as a way of controllng medical practices
although the specifications for such an arrangement are detailed and specific.
Similarly, in Ohio we discovered some rather complicated arrangements that hospitals
undertake to manage medical practices.

State prohibitions on hospital employment of physicians can make recruitment more
diffcult by limiting medical staffing options that are available in States that permit
hospitals to employ physicians. Prohibitions on employment do not allow hospitals to
offer financial guarantees to physicians. These guarantees could be used to alleviate
medical school debts or expenses associated with establishing a new practice.
Several people we intervewed noted that the prohibition on employing physicians
presents a particular difficulty for hospitals attempting to recruit physicians in rural
areas , where including financial guarantees in a recruitment package would make the
offer more attractive to physicians.

In locations where competition with health maintenance organizations (HMOs) is
vigorous , the prohibition on hospital employment of physicians may limit hospitals
abilty to compete for physicians. Because HMOs are able to offer salaries , income
guarantees , and regular working hours to physicians , hospital administrators with
whom we spoke believe that these organizations have a competitive advantage in
recruitment efforts.

Finally, hospital administrators contend that the prohibition on hospital employment of
physicians can impose administrative costs by limiting their leverage over members
their medical staff. Administrators assert that these costs are incurred not only
staffing servces but , more important , by limiting their abilty to control the practice
patterns and costs of individual physicians. The prohibition on a hospital' s abilty to
receive any part of the physician fee means that hospitals are not able to develop risk­
sharing arrangements directly with physicians. Administrators contend that such
arrangements would improve their abilty to control costs by giving physicians a stake
in the hospital' s   cost containment efforts.

Fort-one peen of hopitl adinistrators respondg to our suey               frm th
inate that thee prohiitns         make it more   dif to staff meal seres.         fie State



State prohibitions on hospital employment of physicians deprive hospitals of one
option they believe could help them provide medical staff in their facilties. In four
areas of operations -- inpatient servces , outpatient clinics , basic emergency care , and
specialty emergency care -- administrators indicate that being able to employ
physicians would help meet some of their needs.

One particular problem cited by administrators we intervewed was diffculty in
developing outpatient clinics owing to a lack of physician coverage. Because they
believe that clinic patients are not covered by insurance , physicians fear that they will
not be paid for medical servces provided to them. If a hospital were able to use
salaried physicians , it could establish a hospital-owned group practice based in the
outpatient department. One official said that if hospitals were able to hire physicians
it would be easier to develop a hospital-based perinatal practice focusing on primary
care for newborns , or an obstetrical practice for low income women. Another
administrator advocated the establishment of a hospital-based pediatric practice that
could also provide coverage for the emergency room.

Twen-four peent of hospital adinistrators                            suey from the fie
States say that the prohibitns make it more      dif
                                                 responding to our
                                                        to staff   bas emen seres.
Basic emergency medical servces are provided to patients when they present at the
hospital emergency department. These servces include identification , evaluation , and
assessment of the patient's condition; treatment and administration of medical care;
and stabilzation of the patient' s condition. In recent years , emergency medicine has
been recognized as a distinct medical specialty, 2s with over 13 000 practitioners.

In States where hospital employment of physicians is permitted , our survey data show
that some administrators do take advantage of the employment option available to
them. Twenty-six percent of respondents from the States that permit employment said
that they employ physicians for provision of basic emergency servces.

In the five States that prohibit hospital employment of physicians , 89 percent of
administrators report that they contract for servces with either one physician group,
individual physicians , or emergency department management companies to provide
basic coverage. These arrangements are used by 76 percent of hospitals in States that
permit hospitals to employ physicians.

       peen of hopital adistrators respondg to our suey from the fie
Thir

that the   prhiitns on
provi specilt emen seres.
                         hoitl emplot of physins           make it more   di   State say




Notwthstanding the responses of the administrators from these five States , our data
suggest that being able to employ physicians for specialty emergency care may not
make a difference. Even in those States where the option of physician employment is
available , hospitals are no more likely to hire physicians to provide specialty
emergency servces. Ninety- three percent of administrators responding to our survey
from States that permit hospitals to employ physicians use on-call members of their
active medical staff, rather than directly employed staff, to provide specialty coverage
in the emergency department , as do 95 percent of those administrators responding
from States that prohibit employment of physicians.


HOWEVER, STATE PROHImONS ON HOSPITAL EMPWYMNT OF
PHYSICIAS DO NOT APPEA TO PREENT A MAOR OVERA
PROBLEM FOR HOSPITAL.


Th-three peent of hospitl adtrators responding to the suey from the            fie States
          hopital emplot of physicins report that the are not even aware that
that prohiit
thee prohibitns apply    in the State.
It is possible that for administrators who are unaware of the prohibitions on employing
physicians , these prohibitions have become a part of day- to- day operations and do not
merit separate consideration. Perhaps they have not dealt recently with the
prohibitions on hospital employment of physicians , or they may consider these issues
to fall within the domain of some other department of the hospital , such as legal
affairs or medical staffing servces.

We found no recent cases in which hospitals had been prosecuted or had faced
disciplinary actions for employing physicians in these States. Nevertheless , these
ins itutions run a risk if they do not consider or are not aware of the prohibitions on
hospital employment of physicians when they undertake such efforts as restructuring
operations or recruiting physicians.

Hospil adistrators in thee  fie State ci a nuer of factors othe than
prohiitns on hopitl      emplot of physiians as more importnt litins on the
abil to ase specilt coverage        in their      depart. The factors inlu
                                             emen rates
a shortage of specilt   physicins   low   reiurem       fear of ineased malpractie
libil and disptin of their     priate practies.


Only 20 percent of hospital administrators responding in these five States cite State
prohibitions on hospital employment as a factor limiting their ability to assure specialty
coverage. Six- three percent of the administrators indicate that a general shortage of
specialty physicians causes problems in assuring specialty coverage in the emergency
                                                       , "




department , and six percent respond that low reimbursement rates are an obstacle
to getting physicians to serve on specialty on-call panels. Other factors that
administrators cite more frequently than prohibitions on hospital employment of
physicians are physician fears that their exposure to malpractice liabilty will increase
physician concerns about disrupting their private practices , and fear of sanctions under
the Federal patient transfer law (COBRA).

                                                         FIGUR

            Factors Afecting Hospita' Abilty                  To   Asre Speciaty Emergency Coverae
            100%



              80%                                                                                   II Physi She
                                                                                                         Low

                                                                                                         Mapr Ri
              60%
                                                                                                    IT Pr
                                                                                                         COBR
             40%
                                                                                                    DI MD Emloym
                                                                                                                 Laws




             20%




        Pege of
             Ci Fa
                     Ac!
Note: N = 115 hospital administrators from California , Colorado , Iowa , Ohio ,   and Texs responding to OIG/OEI mail survey,
May 1991. Total exceeds 100% because of multiple responses.



Our intervews supported the survey findings that the prohibition on hospital
employment of physicians is a relatively unimportant factor in providing emergency
coverage. As one administrator said If all of a sudden we were allowed to hire
doctors , it wouldn t make a difference. It' s not an emergency room issue. " Another
indicated that even if laws prohibiting employment of physicians were repealed , any
impact would be " evolutionary, not revolutionary.

Hospitals in all States confront a number of problems related to emergency
department coverage ,in addition to those identified here. Forty eight percent of
administrators responding to our survey from the five States report that their abilty                                            to
                                                                       , "




assure specialty coverage in the emergency department has become more difficult over
the past two years. Other recent studies have cited financial problems associated with
trauma centers , use of emergency rooms for primary care servces , and
overcrowding29 as important problems confronting emergency care. A forthcoming
OEI report will examine problems associated with the availability of specialty coverage
in hospital emergency departments in more detail.

Wh aske about the impact of the Fedal pati transer law on th hopit none
of the adtrators responding to the suey from thee fie States
on physin    emplo as an obstacle to complince.                     id
                                                               prohibitns

In the five States that prohibit hospital employment of physicians , 49 of the 115 survey
respondents reported actions their hospital had taken in response to the patient
transfer law, and 62 administrators commented on the impact of the law on their
hospital. We analyzed these responses , and found that none of the comments related
to a hospital's inabilty to employ physicians as a problem in their abilty to comply
with the patient transfer requirements.

Attorneys we intervewed corroborated these findings. One attorney noted that
prohibitions on hospital employment of physicians have never been raised as a defense
in any patient transfer case. Other individuals we spoke with raised a number
issues related to the patient transfer law, yet no one was able to relate these concerns
to State laws that prohibit hospitals from employing physicians.

SUMY AN CONCLUSION
Our study has found that State prohibitions on hospital employment of physicians are
not a major national problem. Only five States continue to prohibit hospitals from
employing physicians , and even in those States numerous exceptions apply, based on
hospital auspices , physician specialty, or organizational arrangement. Only a minority
of hospital administrators responding to our survey from the five States believe that
these prohibitions present a problem; one-third of administrators in those States are
not aware that these provisions apply.

Even among the administrators citing difficulties caused by the prohibitions , its relative
importance is minor. With respect to emergency servces , for example , those we
surveyed cite factors such as a shortage of specialty physicians , low reimbursement
rates , malpractice liabilty, and disruption of practice as more important limitations on
their ability to provide specialty coverage than are State prohibitions on hospital
employment of physicians.

Other administrators consider State prohibitions on hospital employment of physicians
to be only one factor influencing hospital-medical staff relations. One California
hospital administrator s comment summarizes the remarks of others Most of us are
able to accommodate through other mechanisms what repeal would accomplish.
                             APPENDIX A

                                  METHODOWGY

Leal Anlysi
We reviewed statutory language and court decisions from the States that prohibit
hospitals from employing physicians. The prohibitions are based on the following
statutes:
        California Business and Professions Code , Section 2400;
        Colorado Revised Statues , Sections 12- 36- 129;
        Iowa Code Annotated , Sections 147. 2 and 148.13;
        Ohio Revised Code , Sections 4731.22 , 4731.41 , and 1701.03;
        Texas Revised Civil Statutes , Article 4495b.

We also reviewed case law on decisions interpreting the corporate practice of
medicine , as well as legal and policy literature. Relevant decisions and articles are
identified in appendix B.


Sample Selectin and Natinal Surey


This study uses data from a survey of a random national sample of hospital
administrators on issues related to emergency room care. The sample universe
consisted of all acute short- term hospitals that had an emergency department from the
Health Care Financing Administration Provider of Servce file. The sample was
selected using stratified simple random sampling with six strata:

       Small rural hospitals (fewer than 100 beds)
       Small urban hospitals

       Medium rural hospitals (100 - 299 beds)

       Medium urban hospitals

       Large rural hospitals (300 or more beds)

       Large urban hospitals


Due to prior knowledge that California prohibits hospital employment of physicians
hospitals in that state were sampled at a higher rate than the remaining States. Six
strata were defined for California and also for the remaining States , for a total of
strata. Originally, 637 hospitals were selected for the survey, but due to mergers and
closures , the sample size was decreased to 598.

Surveys were distributed on May 10 , 1991 , to these 598 hospitals , with a follow-up
mailing to nonrespondents on May 31. Responses were received from 447 hospitals , a
response rate of 74. 7 percent. Of these 447 hospitals , 115 (25. 7 percent) responded
from the five States that prohibit hospital employment of physicians , forming the data
base for the analysis in this study. A sample size of 115 hospitals provides estimates
within :t ten percent of the true value at the 95 percent confidence level. Except
where identified specifically as coming from the full national sample , all percentages in
the text refer to the 115 hospitals in the five States.

The survey contained questions to determine whether hospital administrators believe
that their State prohibits hospitals from employing physicians. In some States , some
administrators indicated that their States did have such a prohibition. Follow-up
telephone calls to State hospital associations to verify the applicabilty of the
prohibition , however, revealed that the State had either repealed the prohibition , or
that the provisions were substantially ignored. Based on the survey results and these
discussions , California , Colorado , Iowa , Ohio , and Texas were identified as having and
enforcing State prohibitions on hospital employment of physicians. Table A- I displays
the sample and response size for each of these States.



                                       TABLE A-

             Ditnoution of Sureyed Hospita        and     Respondents by State

           STATE                      NUER                           NUER
                                       HOSPITAL                       HOSPITAL
                                      SURVEYED                       REPONDING
                                       (% of Tota)                    (% of Tota)

                   California           81 (51.9%)                         (47. 0%)
                   Colorado                  (5. 2%)                       (7. 0%)
                        Iowa                 (7. 7%)                        (9. 6%)
                        Ohio            16 (10.3%)                         (13. 0%)
                       Texas            39 (25. 0%)                        (23.5%)
           TOTAL                      156   (l(X10%)                 115   (l(X10%)


Inters
Our intervews included telephone and in- person discussions with ten hospital
administrators from Caliornia and three administrators from Massachusetts. We
focused our intervews on California , because that State had been identified previously
as prohibiting hospital employment of physicians.




                                            A­
We also intervewed by telephone or in person , officials with state hospital associations
in Arizona , California , Colorado , Georgia , Ilinois , Iowa , Kansas , Massachusetts
Mississippi , Montana , Ohio , Texas , and Washington , and representatives of regional
hospital associations in California. We intervewed State medical society officials in
California , Iowa , Massachusetts , and Texas. (In some cases , intervews were
conducted with more than one member of these groups.

Our intervews also included representatives of the American Medical Association
American Hospital Association , and American College of Emergency Physicians. We
also intervewed seven attorneys identified to us as familar with issues related to the
corporate practice of medicine.




                                          A ­

                             , "        , "   , " , " , "




                                                       APPENDIX 

                                                              ENNOTE
1. P. L. 101- 508 ,          Section 4008(c).

2. John Wiorek, liThe                     Corporate Practice of Medicine Doctrine: An Outmoded
Theory in Need of Modification                              Journal of Legal Medicine        , no. 3 (1987), pp. 465­
492.

3. Jeffrey F. Chase- Lubitz The Corporate Practice of Medicine Doctrine:
Anachronism in the Modern Health Care Industry, Vanderbilt Law Review 44 (1987),
pp. 445- 488.

4. Stanley Wohl Is Corporate Medicine Healthy for America? The Growth of the
Medical- Industrial Complex May Be Hazardous to Your Health Business and Society
Review        (Fall 1984), pp. 16- 20.


5. Donald P. " Rocky" Wilcox Medicine and the Law: Pressure to Serve Two
Masters Texas Medicine 82 (June , 1986), pp. 67- 69.

6. Painless Parker                 v.   Board of Dental Examiners           216 Cal. 285 ,   14 P. 2d 67 (1932).
7. State      Board of Medical Examiners                      v.   Pacifc Health Corp.   12 Cal. 2d 15682 P.
429 (1938).

8. Dr. Allison            , Dentit      , Inc.    v.   Allison 360 Ill. 638, 196 NE 799 (1935).

9. Ibid.



10. Garcia           v.   Texas State Board of Medical Examiners 284 F. Suppl. 434 , W. D.                     Texas
(1974).

11. Arnold J. Rosoff The Business of Medicine: Problems with the Corporate
Practice Doctrine Cumberland Law Review 17 (1987), pp. 485- 503.

12. Ibid.

13. Ibid.

14. Alanson W. Wilcox Hospitals and the Corporate Practice of Medicine Cornell
Law Review 45 (1960), pp. 432- 487.

15. 42 U.            c. sections 1395cc and 1395dd.

                            , "              , " , "




16. North Dakota House Bil No. 1426 ,      approved March 21 , 1991 , provides that:
      It is permissible for a hospital 'incorporated as a nonprofit corporation to
      employ a physician provided that the employment relationship between
      the physician and hospital is evidenced by a written contract containing
      language to the effect that the hospital' s employment relationship with
      the physician may not affect the exercise of the physician s independent
      judgment in the practice of medicine , and the physician s independent
      judgment of medicine is in fact unaffected by the physician s employment
      relationship with the hospital. Under this section a hospital may not be
       deemed to be engaged in the practice of medicine.

17. Montana Senate Bil No. 146 , effective October 1 , 1991 , permits:
      practicing medicine as the partner, agent , or employee of or in joint
      venture with a hospital , medical assistance facilty, or other licensed
      health care provider. However:
             (I) The partnership, agency, employment , or joint venture
              must be evidenced by a written agreement containing
              language to the effect that the relationship created by the
              agreement may not affect the exercise of the physician
              independent judgment in the practice of medicine;
              (II) The physician s independent judgment in the practice
              of medicine must in fact be unaffected by the relationship;
              and
              (III) The physician may not be required to refer any
              patient to a particular provider or supplier or take any
              other action the physician determines not to be in the
              patient' s best interest.

18. The Resource Information Center at the American Hospital Association informed
us that in 1989 there were 6 720 hospitals in the United States. The number of
hospitals in each of the five States examined here were:
       California -- 560 (8.3%)
      Colorado -- 88 (1.3%)
      Iowa -- 135 (2. 0%)

      Ohio -- 226 (3.4%)

      Texas -- 538 (8. 0%)

        Subtotal, five States -- 1 547 (23. 0%)

19. Morgan J. Ordman The Corporate Practice of Medicine Illinois Bar Journal
April 1988, pp. 464- 465; John Wiorek The Corporate Practice of Medicine Doctrine:
An Outmoded Theory in Need of Modification Journal of Legal Medicine , no. 3
(1987), pp. 465- 492; Alanson W. Wilcox Hospitals and the Corporate Practice of
Medicine Cornell Law Quarterly,  45 (1960), pp. 432- 487.


20. Early Detection   Center, Inc.   v.   Wilson et aI Kansas Supreme Court , No. 65 328
(May 1991).
        , "




21. Morrell    v.   Ehsan 110 Wn. 2d 555 , 756 P. 2d    129 (June 1988).

22. The clinic must conduct medical research and health education , and must provide
health care through a group of 40 or more physicians; the physicians and surgeons
must be independent contracts representing at least 10 board-certified specialties; and
no less than two- thirds    of the physicians   must practice on a full- time basis at the clinic.

23. One example provided was that a hospital enters into a trust agreement , with the
hospital (which provides the capital to fund the venture) as beneficiary and a physician
servng as trustee at the pleasure of the hospital. The physician trustee also serves as
majority shareholder in a professional corporation, with shares purchased by the
hospital- physician trust. The professional corporation owns and operates the practice
and distributes net revenues back to the trust as dividends. The trust then can
distribute this trust income back to the hospital as beneficiary.
24. According to one source , employment would ensure that physician referrals to the
employing hospital are not subject to fraud and abuse laws. Contracts that require
repayment of some value , in order to avoid IRS proscriptions on inurement to a
physician from a tax-exempt hospital , run the risk of violating Medicare- Medicaid
kickback provisions. See " Finally, Positive Thinking on Physician Recruitment Action
Kit for Hospital Law July, 1990.

25. See " Definitionof Emergency Medicine and the Emergency Physician Annals of
Emergency Medicine     , no. 10 , (October 1986), for a full discussion of the emergency
medicine specialty.

26. The totals exceed 100 percent because some administrators indicated that they
use more than one approach to staffing basic emergency servces.

27. U. S.
        General Accounting Office Trauma Care: Lifesaving System Threatened by
Unreimbursed Costs and Other Factors May 1991 , Report No. GAOIHRD- 91- 57.

28. Use of    Emergency Rooms by Medicaid Recipients OEI- 06-90- 00180.

29. Andrew S. Bindman , Kevin Grumback, Dennis Keane , Loren Rauch , and John
Luce Consequences of Queuing for Care at a Public Hospital Emergency
Department lAM 266 , no. 8 (August 28 , 1991), pp. 1091- 1096.
